Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Variation in Organ Donation
     Among Transplant Centers




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                        May 2003
                       OEI-01-02-00210
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
OBJECTIVE

The objective of this report is to describe variation in organ donation among transplant
centers.

We analyzed data for 190 of the nation’s 255 transplant centers on patients who were
medically eligible to be organ donors and the number of donors for whom consent was
given to donate. We found that the rate of consent for donation (the consent rate) varies
widely among transplant centers at the national level, as well as within geographic regions
and at the organ procurement organization (OPO) service area level. We found a slightly
higher consent rate in hospitals with a larger number of transplant programs and
operations.

However, of 190 transplant centers in our analysis, 18 had a consent rate below 30 percent,
compared to a national average of 51 percent. Had these 18 transplant centers obtained
consent at the average rate of the other 172 centers (54 percent), they would have realized
130 more donors beyond their current performance, resulting in an estimated additional
450 life saving organs.

BACKGROUND

More than 80,000 Americans are currently awaiting organ transplants, yet fewer than
25,000 people received a transplant in 2002. During that same year more than 6,400
people died while waiting for a transplant. 1 It is estimated that 12,000 to 15,000 deaths
annually could yield organs for transplantation; however, fewer than half of those deaths
led to such an outcome in 2002. 2

Medicare requires that all hospitals receiving Medicare or Medicaid funding have an
agreement with an OPO to coordinate organ donation efforts. Every hospital participating
in Medicare and Medicaid must contact its OPO in a timely manner about patients whose
deaths are imminent or who die while in the hospital. 3

No specific requirements govern organ donation at hospitals that perform organ
transplants. Hospitals that receive Medicare reimbursement for heart, liver, and heart-lung
transplants must demonstrate “adequate plans for organ procurement meeting legal and
ethical criteria, as well as yielding viable transplantable organs in reasonable numbers.”4
Although this criterion lays out a general expectation for transplant center performance in
donation, it does not specify a minimum level of donation that a transplant center should
achieve, and it applies only to heart, liver, and heart-lung transplant centers.

This analysis focuses on transplant centers because they are in a key position to take a
leadership role in donation. Their staff are familiar with the life-saving benefits of organ
transplantation. Operating a transplant program brings significant prestige in the medical
community. These hospitals are at the forefront of implementing sophisticated medical
procedures.




Organ Donation in Transplant Centers                                          OEI -01-02-00210
The Health Resources and Services Administration (HRSA) oversees the nation’s organ
procurement and transplantation system. Among its other responsibilities, HRSA funds
the Organ Procurement and Transplantation Network (OPTN). 5 All transplant programs
are members of the OPTN. The OPTN is charged with operating and monitoring an
equitable system for allocating organs, maintaining a waiting list of potential recipients,
matching potential recipients with donors, and increasing organ donation.

Since 1999, HRSA has funded demonstration and research projects to test and replicate
interventions designed to increase organ donation. OPOs, hospitals (including transplant
centers), and other organizations receive these grants. In the most recent round of grant
projects, funded in September 2002, the agency funded 16 grants that test medical
strategies and outreach efforts intended to increase the number of donors.

The Centers for Medicare & Medicaid Services (CMS) specifies organ procurement
service areas, establishes conditions of coverage for the nation’s 59 OPOs, and certifies
those orga nizations for participation in Medicare. CMS also establishes the conditions that
a transplant center must meet in order to receive Medicare reimbursement for organ
transplants.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this analysis is to present data on variation in organ donation among
transplant centers. This data presentation is part of our continuing work toward helping to
increase organ donation. Documenting variation among transplant centers can help
identify centers with potential for increasing the number of donors, as one step in closing
the gap between the need for and the availability of organs.

Our analysis uses hospital-specific data that OPOs submit to the OPTN. The OPTN
provides these data to HRSA’s Division of Transplantation. The requirement for
submission of these data is HRSA’s response to OIG’s 2000 recommendation that it
“require OPOs to submit hospital-specific data on referrals and on organ recovery” to help
the Department assess the effectiveness of efforts to increase organ donation. (Office of
Inspector General, “Medicare Conditions of Participation for Organ Donation: An Early
Assessment of the New Donation Rule,” OEI-01-99-00020, August 2000.)

The data report the number of eligible donors and the number for whom consent to donate
was given, from August 2001 through November 2002. An eligible donor is defined as a
patient aged 70 or younger whose death is determined by neurological criteria (brain death)
and who does not have clinical conditions, such as tuberculosis, HIV, or hepatitis. 6 From
this data set, which covers all hospitals in the United States, we created a subset of data for
transplant centers by using the OPTN list of hospitals that were operating a transplant
program in February 2003. The total number of transplant centers is 255.

We then narrowed the data set to include only those transplant centers for which data were
reported for at least 14 of the 16 months from August 2001 through November 2002. We
also chose to include only those transplant centers with a minimum of 4 eligible donors



Organ Donation in Transplant Centers           2                               OEI -01-02-00210
during this 16- month period. We made this decision to avoid skewing the rates with
extreme percentages for hospitals that saw few eligible donors. We also excluded data
from one OPO that identified reporting errors in its initial data submission.

All told, our analysis includes 190 of the 255 transplant centers (approximately 75
percent), and 51 of the 59 OPOs (approximately 86 percent). For these hospitals and
OPOs we calculated the consent rate as the number of eligible donors for whom consent
was given divided by the number of eligible donors.

We identified three limitations to these data. First, although OPOs use uniform definitions
for identifying potential donors, the data are self-reported by the OPO. OPOs could vary
in how they apply these definitions, although we would expect consistency within each
OPO.

Second, these data have not been independently verified. Although each OPO has
validated its own submission, neither we at OIG, nor HRSA or the OPTN has
independently audited these data for accuracy.

Finally, as noted above, some gaps in reporting exist among 8 of the country’s 59 OPOs.
Seven OPOs did not provide data for at least 14 of the 16 months in the reporting period,
and 1 OPO discovered errors during its validation process. We excluded these eight OPOs
from our analysis. As these OPOs submit data, our analysis can be easily updated for the
additional transplant centers involved.

Our analysis is based on the consent rate at each transplant center. The consent rate is the
number of patients for whom consent to donate organs was given, as a percentage of all
patients at the hospital who were medically eligible to donate organs. A medically eligible
donor is defined as a patient aged 70 or younger whose death is determined by
neurological criteria (brain death) and who lacks certain clinical conditions, such as
cancers, tuberculosis, HIV, or hepatitis, among other diseases. Our analysis covers a 16-
month period, from August 2001 through November 2002.

FINDINGS

National Variation in Donation Rates at Transplant Centers

Table 1 shows the variation in consent rates among transplant centers. Nationally, these
190 transplant centers obtained consent from a mean of 51 percent of potential donors,
with a median of 52 percent. Thirty centers (16 percent) had consent rates of 70 percent or
higher.

However, at 18 of the 190 centers the consent rate fell below 30 percent. These centers
averaged 22 eligible donors during this 16- month period. Ten of the 18 centers had at least
1 eligible donor per month; in some centers, the number was considerably higher. Yet they
still had a low consent rate, despite multiple opportunities for donation.




Organ Donation in Transplant Centers         3                               OEI -01-02-00210
                                             Table 1
                                National Variation in Consent Rate
                             Among Transplant Centers (8/01-11/02)
                                           Number of
                         Consent Rate                   Percentage of Total
                                            Centers
                           0 - 9.9%              2              1.1%
                         10% - 19.9%             4              2.1%
                         20% - 29.9%            12              6.3%
                         30% - 39.9%            22             11.6%
                         40% - 49.9%            35               18.4%
                         50% - 59.9%            45               23.7%
                         60% - 69.9%            40               21.1%
                         70% - 79.9%            17                8.9%
                         80% - 89.9%             8                4.2%
                         90% - 100%              5                2.6%
                             Total              190              100.0%
                     source: OIG analysis of OPO data submitted to OPTN and HRSA

Although Medicare and the OPTN have no minimum requirement for consent rates, this
level presents substantial opportunity for improvement. For example, had these 18
transplant centers achieved a consent rate of 40 percent, they would have realized 75
additional donors, resulting in about 260 more organs for transplantation. Omitting these
18 centers, the national mean consent rate was 54 percent. Had these 18 centers achieved
that 54 percent rate, they would have obtained consent for 130 more donors beyond their
current performance, resulting in an additional 450 life saving organs.

Figure 1 shows the geographic distribution of those transplant centers with a consent rate
of less than 30 percent. The 18 transplant centers that fell below 30 percent consent rates
are distributed among 12 OPO service areas.

Undoubtedly, there are factors in addition to being a transplant center that can explain
some portion of this variation. For example, many of the centers with lower consent rates
are located in urban areas that traditionally have had difficulty in obtaining donors. It is
important to note that overall, transplant centers have a slightly higher consent rate than do
other hospitals. For the service areas in this analysis, the consent rate for transplant centers
averages 51 percent, versus 47 percent for other hospitals.

The OPO service areas contain 1 to 11 transplant centers. For the 51 OPO service areas
included in this analysis, variation is widest in those service areas with the largest numbers
of transplant centers.




Organ Donation in Transplant Centers             4                                 OEI -01-02-00210
                                                                  Figure 1.
                          Location of Transplant Centers with Consent Rates Below 30 Percent




    1 transplant center       more than 1 transplant center




Variation by Number of Transplant Programs at a Center

Transplant centers can operate between one and eight transplant programs. Almost all
transplant centers (243 of 255) perform kidney transplants, while fewer centers have other
programs. 7 Table 2 displays consent rates by number of transplant programs that a
transplant center operates. Larger programs show slightly higher consent rates. For
example, the 21 centers that operate either 7 or 8 transplant programs had a combined
consent rate of 55 percent. The 87 centers operating either 1 or 2 programs had a
combined rate of 48 percent.

Among the 18 transplant centers with consent rates below 30 percent, 5 had only one
transplant program, but 6 had 4 or more transplant programs.




Organ Donation in Transplant Centers                          5                      OEI -01-02-00210
                                          Table 2
                  Consent Rate By Number Of Transplant Programs (8/01-11/02)
                                                          Transplant Center Consent
                                                                       Rates
                                                           (eligible donors / consents)
            Number of   Number of Eligible
                                               Consents      Mean        High Low
            Programs     Hospitals   Donors
                 8               7               215           139             64.7%   95%    28%
                 7              14               513           261             50.9%   76%    21%
                 6              25               800           425             53.1%   73%    35%
                 5              20               487           271             55.6%   93%    13%
                 4               20           359               207            57.7%   89%    38%
                 3               17           526               259            49.2%   80%    0%
                 2               36           788               372            47.2%   90%     0%
                 1               51          1,391              671            48.2%   100%   28%
            Total/ Mean         190          5,079             2,605           51.3%
         source: OIG analysis of OPO data submitted to OPTN and HRSA

Variation by Number of Transplant Operations Performed
We ranked centers by the number of transplant operations they had performed between
1987 and 2001. The volume of transplant operations is highly concentrated into a few
centers. Ten of the 190 centers in our analysis had performed 25 percent of all the
transplants, and 30 had performed 50 percent of the transplants.
As with the number of transplant programs in a hospital, these data show that the large
programs exhibit a somewhat higher mean consent rate. At the same time, however, the
variance around that mean is quite large, for all sizes of programs.


                                        Table 3
               Consent Rate by Number of Transplant Operations (8/01-11/02)
                                                                  Transplant Center
                           Number of
              Number of                  Eligible                   Consent Rates
 Quartile                 Transplants              Consents
              Hospitals                  Donors              (eligible donors / consents)
                          (1987-2001)
                                                               Mean High          Low
   0-25%          10         40,488        347        202       58%      95%      21%
  26-50%          20         41,259        670        396       59%      93%      32%
  51-75%          34         39,211       1,162       593       51%      82%       0%
 76-100%         126         40,388       2,900      1,414      49%     100%       0%

Totals                 190             161,346         5,079           2,605     51%
source: OIG analysis of OPO data submitted to OPTN and HRSA




Organ Donation in Transplant Centers                   6                               OEI -01-02-00210
Among the 18 transplant centers with consent rates below 30 percent, one was included in
the quartile of the 10 largest hospitals that perform 25 percent of all transplants.


SUMMARY

Our objective was to describe va riation among transplant centers, which, because of their
role in organ transplantation, can be potential national leaders in donation.

These data illustrate the wide variation among transplant centers in procuring organ
donors. In documenting this variation, our analysis highlights the existing potential to
increase the number of organ donors.

Undoubtedly, there are factors in addition to being a transplant center that can explain
some share of this variation. For example, many of the centers with lo w consent rates are
located in urban areas that traditionally have had difficulty in obtaining donors. Our aim
here is not to explain these differences, but rather to identify areas in which there is broad
opportunity for increasing organ donation.

We recognize the limitations to these data. They are self- reported and we have not
independently verified them. The data do not cover 8 of the 59 OPOs; they also exclude
65 of the 255 transplant centers. Nevertheless, even with these limitations, the data
highlight the variation among transplant centers in donor consent rates. As additional data
are submitted, this analysis could be replicated to determine whether more comprehensive
data reveal any changes in consent rates.

No specific criteria exist either in Medicare or in the OPTN governing organ donation and
consent rate expectations at transplant centers. However, if those transplant centers with
lower consent rates can rise toward the mean, many more transplantable organs will
become available, and the gap between the need for organs and their availability will begin
to close. With the shortage of transplantable organs growing, any steps that can help
reduce that gap should be examined.

HRSA, in its ongoing oversight of the OPTN, can work with the transplant center
community to increase consent rates. HRSA could encourage the OPTN to focus on
transplant centers with lower consent rates, where substantial unmet potential exists. All
centers are members of the OPTN, giving that organization access to and particular
credibility in the transplant community.

HRSA funds grant programs that focus on clinical interventions and social/ behavioral
strategies to increase organ donation. Recipients of these grant funds include OPOs,
hospitals, and other organizations. HRSA might choose to give special attention to project
proposals that focus on transplant centers with lower consent rates.

HRSA might also choose to make hospital-specific data on donation publicly available.
We previously had recommended that CMS make such data public, and the agency agreed
that this idea has merit and should be considered. 8 In that report, we also recommended


Organ Donation in Transplant Centers           7                               OEI -01-02-00210
that HRSA require OPOs to submit hospital-specific data on referrals of potential donors
and on organ recovery. The agency concurred with our recommendation; in its contract
with the OPTN, HRSA required the submission of those data and it began collecting them.
As a result, HRSA appears to be the more appropriate agency to make the data public. In
fact, HRSA plans to make these data publicly available in the summer of 2003.

As more data become available, HRSA may also wish to examine trends in for those
centers with low consent rates to assess whether they have made improvements.

CMS is reexamining the conditions of coverage for OPOs and is also considering new
conditions for participation for transplant centers. Both of these efforts provide an
opportunity to implement more specific criteria governing organ donation. The data
presented here give CMS a base line, which it might use in considering whether and how
to incorporate criteria governing donation in transplant centers in these new conditions.




Organ Donation in Transplant Centers         8                              OEI -01-02-00210
                                         APPENDIX




                                       Table A-1
                          Variation in Consent Rate Among
                 Transplant Centers Across OPTN Regions (8/01-11/02)
                     Number of     Organ
         OPTN
                     Transplant Procurement          Transplant Center Consent Rates
         Region
                      Centers   Organizations         Mean        High         Low
        Region 01         13              2           66.7%          90.0%    34.3%
        Region 02         18              4           43.2%          67.0%     0.0%
        Region 03         23              9           48.1%          93.0%    25.0%
        Region 04         17              3           54.1%          80.2%    13.3%
        Region 05         23              6           49.2%          100.0%   23.8%
        Region 06          5              2           62.7%          75.0%    54.5%
        Region 07         19              4           62.8%          90.0%    25.0%
        Region 08         18              5           70.6%          88.9%    25.0%
        Region 09         15              4           44.9%          61.5%     0.0%
        Region 10         19              5           50.6%          85.7%    14.3%
        Region 11         20              7           46.4%          73.3%    27.6%

       Total /
       mean              190             51           51.3%          100.0%   0.0%
       source: OIG analysis of OPO data submitted to OPTN and HRSA




Organ Donation in Transplant Centers            9                             OEI -01-02-00210
                                      Figure A-1

                Regional Variation in Donation at Transplant Centers


                              Variation in Consent Rate

                  Among Transplant Centers by OPTN Region (8/01-11/02)





                                                                                      Region 1

                                                   Region 7                     Region 9

                       Region 6
                                                                  Region 10


                                                                                     Region 2

                                               Region 8
                   Region 5


                                                                         Region 11



                                             Region 4
                                                                Region 3




Key:

              < 50 percent             50-59 percent          60 > percent



source: OIG analysis of OPO data submitted to OPTN and HRSA




Organ Donation in Transplant Centers          10                           OEI -01-02-00210
                                             Endnotes
1
  According to the United Network for Organ Sharing, which holds the federal contract for the
Organ Procurement and Transplantation Network, as of April 4, 2003, there are 80,953 candidates
on the waiting list for an organ transplant. 24,866 people received a transplant in 2002; 6,608 of
these transplants were from living donors (kidneys and livers), and 18,258 were from cadaveric
donors. There were 6,184 cadaveric donors in 2002, and 6,818 living donors.
(http://www.unos.org/data/default.asp?displayType=usData, accessed April 4, 2002)
2
 Steven Gortmaker, Carol Beasely, et al., “Organ Donor Potential and Performance: Size and
Nature of the Organ Donor Shortfall,” Critical Care Medicine, 24: 432-439.
3
    42 C.F.R., §283.45 was added at 63 Fed. Reg. 33,875, June 22, 1998, effective August 21, 1998.
4
  These criteria for coverage were established for heart transplants at 52 Fed. Reg. 10,935, April 6,
1987; for liver transplants at 56 Fed. Reg. 15,006, April 12, 1991; and for lung and heart-lung
transplants at 60 Fed. Reg. 6,537, February 2, 1995. Medicare does not restrict which hospitals or
physicians may perform pancreas transplants. Medicare bases certification of intestinal transplant
centers on volume and survival criteria only. Medicare certification of kidney transplant centers,
which dates to 1976, does not address donation.
5
 The OPTN contract is held by the United Network for Organ Sharing, based in Richmond,
Virginia.
6
 Eligible donors are defined as “any patient who is aged 70 or younger meeting death by
neurological criteria, based on the American Academy of Neurology Practice parameters for
determining brain death, who does not have the following:
      • Tuberculosis
      • Human Immunodeficiency Virus Infection with Special Conditions
      • Creutzfeldt-Jacob Disease
      • Herpetic Septicemia
      • Rabies
      • Reactive Hepatitis B Surface Antigen
      • Any Retro virus infection
      • Active malignant Neoplasms, except Primary CNS tumors and skin cancers
      • Hodgkin’s Disease, Multiple Myeloma, Leukemia
      • Miscellaneous Carcinomas
      • Aplastic Anemia
      • Agranulocytosis
      • Fungal and Viral Meningitis
      • Viral Encephalitis
      • Gangrene of Bowel
      • Extreme Immaturity
      • Positive Serological or Viral Culture Findings for HIV”
7
  In addition to kidney transplants (243 hospitals), hospitals can perform transplants for hearts (139
hospitals), livers (120), lungs (72), heart-lung blocs (74), pancreata (136), pancreas islets (36), and
intestines (39). In the 191 hospitals in this sample, the totals are: Kidneys-184; 109 hearts-109;



Organ Donation in Transplant Centers              11                                  OEI -01-02-00210
livers-90; lungs-59; heart-lung blocks-58; pancreata-99; pancreas islets-26; and intestines-33.

8
 Office of Inspector General, “Medicare Conditions of Participation for Organ Donation: An Early
Assessment of the New Donation Rule,” OEI-01-99-00020, August 2000.




Organ Donation in Transplant Centers             12                                 OEI -01-02-00210
ACKNOWLEDGEMENTS

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General for Evaluation and Inspections in Boston and Joyce M. Greenleaf,
M.B.A., Assistant Regional Inspector General. Other principal Office of Evaluation and
Inspections staff who contributed include:

Russell W. Hereford, Ph.D., Project Leader            Alan Levine, Program Specialist
Ivan E. Troy, M.P.A., Program Analyst
